     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region VII
                                                                          601 East 12th Street, Room 0429
                                                                          Kansas City, MO 64106

September 10, 2010

Report Number: A-07-10-00337

Ms. Nancy Donaldson
Vice President Medicare Contract Administration
Health Care Service Corporation
R13A-5.413
1001 E. Lookout Drive
Richardson, TX 75082

Dear Ms. Donaldson:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of the Qualified Pension Plan at Blue Cross Blue
Shield of Oklahoma, a Terminated Medicare Contractor, for the Period January 1, 1999, to
February 29, 2008. We will forward a copy of this report to the HHS action official noted on the
following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21, or
through email at Jenenne.Tambke@oig.hhs.gov. Please refer to report number A-07-10-00337
in all correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Nancy Donaldson


Direct Reply to HHS Action Official:

Ms. Deborah Taylor
Acting Director & Chief Financial Officer
Office of Financial Management
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, MD 21244-1850
Department of Health & Human Services
          OFFICE OF
     INSPECTOR GENERAL


  REVIEW OF THE QUALIFIED
PENSION PLAN AT BLUE CROSS
 BLUE SHIELD OF OKLAHOMA,
  A TERMINATED MEDICARE
CONTRACTOR, FOR THE PERIOD
     JANUARY 1, 1999, TO
     FEBRUARY 29, 2008




                     Daniel R. Levinson
                      Inspector General

                      September 2010
                       A-07-10-00337
                         Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is to
protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Blue Cross Blue Shield of Oklahoma (Oklahoma), a division of Group Health Service of
Oklahoma (GHSO), administered Medicare Part A operations under cost reimbursement
contracts with the Centers for Medicare & Medicaid Services (CMS) until GHSO merged with
Health Care Service Corporation (HCSC) on November 1, 2005. On December 29, 2006, HCSC
merged the Non-Contributory Retirement Program for Certain Employees of Group Health
Service of Oklahoma, Inc., into the HCSC Employee Pension Plan.

Pursuant to a novation agreement, HCSC assumed GHSO’s Medicare contract and administered
the contract under HCSC’s Oklahoma division until the contractual relationship terminated
effective February 29, 2008. The closing date for the Medicare segment was February 29, 2008.
Thus, although we are addressing this report to HCSC, we will associate the term Oklahoma with
our findings and recommendations regarding the segmentation termination as of
February 29, 2008.

Since its inception, Medicare has paid a portion of contractors’ contributions to their pension
plans. These contributions are allowable Medicare costs subject to the criteria set forth in the
Federal Acquisition Regulation, Cost Accounting Standards (CAS), and Medicare contracts.
Furthermore, in situations such as contract terminations, the Medicare contracts require
contractors to identify excess Medicare segment pension assets/liabilities in accordance with
CAS 413.

Pension Segmentation

Beginning with fiscal year 1988, CMS incorporated segmentation requirements into the
Medicare contracts. The Medicare contracts define a segment and specify the methodology for
the identification and initial allocation of pension assets to the segment. Additionally, the
contracts require Medicare segment assets to be updated for each year after the initial allocation
in accordance with CAS 412 and 413.

Upon the termination of its Medicare contracts, Oklahoma identified Medicare’s share of the
Medicare segment excess pension liabilities to be $1,871,051.

Prior Pension Segmentation Audit Report

We performed a prior pension segmentation audit at Oklahoma (A-07-00-00106, issued
July 17, 2001), which brought the Medicare segment pension assets to January 1, 1999. The
prior audit found that Oklahoma understated the Medicare segment pension assets by $45,508 as
of January 1, 1999. We recommended that Oklahoma increase its Medicare segment pension
assets by $45,508 and, as a result, recognize $1,823,883 as the Medicare segment pension assets
as of January 1, 1999.




                                                 i
OBJECTIVE

Our objective was to determine whether Oklahoma complied with Federal requirements and the
Medicare contracts’ pension segmentation requirements when:

   •   implementing the prior audit recommendation,

   •   updating the Medicare segment’s pension assets from January 1, 1999, to
       February 29, 2008, and

   •   determining Medicare’s share of the Medicare segment excess pension liabilities as a
       result of the termination of the Medicare contracts.

SUMMARY OF FINDINGS

Oklahoma properly implemented the prior audit recommendation; however, Oklahoma did not
always comply with Federal requirements and the Medicare contracts’ pension segmentation
requirements when updating Medicare segment assets from January 1, 1999, to
February 29, 2008. Oklahoma identified Medicare segment pension assets of $1,460,435;
however, we determined that the Medicare segment pension assets were $3,034,384 as of
February 29, 2008. As a result, Oklahoma understated the Medicare segment pension assets by
$1,573,949 as of February 29, 2008.

In addition, Oklahoma did not fully comply with Federal requirements in its calculation of
Medicare’s share of the Medicare segment excess pension liabilities associated with the
termination of the Medicare contracts. Oklahoma computed Medicare’s share of the Medicare
segment excess pension liabilities to be $1,871,051; however, we determined that Medicare’s
share of the Medicare segment excess pension liabilities was $899,828 as of February 29, 2008.
Accordingly, we determined that Oklahoma overstated Medicare’s share of excess pension
liabilities, due to the termination of the Medicare contracts, by $971,223.

RECOMMENDATIONS

We recommend that Oklahoma:

   •   increase the Medicare segment pension assets as of February 29, 2008, by $1,573,949
       and recognize $3,034,384 as the Medicare segment’s pension assets; and

   •   decrease Medicare’s share of the Medicare segment excess pension liabilities by
       $971,223 and submit for reimbursement $899,828 as Medicare’s share of the excess
       pension liabilities due to the segment closing calculation.




                                               ii
AUDITEE COMMENTS

In written comments on our draft report, Oklahoma did not directly address our first
recommendation. Oklahoma concurred with the substance of our second recommendation but
disagreed with the final Medicare segment accrued liabilities that we used in our calculations.

Specifically, Oklahoma stated that the final accrued Medicare segment liability ($3,698,163)
used in our draft report to compute the segment closing adjustment was based on our estimation.
Oklahoma added that subsequent to the issuance of our draft report, Oklahoma and its actuarial
consulting firm provided us with the actual Medicare segment final accrued liabilities of
$3,997,528 as of February 29, 2008. Oklahoma requested that the draft report be finalized, and
Medicare’s share of the excess Medicare segment pension liabilities be adjusted, on the basis of
these revised amounts.

Oklahoma’s comments are included in their entirety as Appendix C.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing Oklahoma’s comments, we revised the calculation of Medicare’s share of the
excess Medicare segment pension liabilities to reflect the actual Medicare segment final accrued
liabilities of $3,997,528. However, we disagree with Oklahoma’s statement that the final
Medicare segment accrued liabilities used in our draft report were based on our (that is, the
Office of Inspector General in consultation with the CMS Office of the Actuary, as mentioned in
the Methodology section of our report) estimates. In fact, during our fieldwork we used the final
Medicare segment accrued liabilities that Oklahoma provided to us. After the issuance of the
draft report, Oklahoma provided us with the actual Medicare segment final accrued liabilities of
$3,997,528 as of February 29, 2008. We incorporated this adjustment into this final report and
revised the relevant finding and recommendation accordingly.

Furthermore, although Oklahoma did not specifically address our first recommendation, it
effectively agreed to the recommended adjustment to assets as of February 29, 2008, by
concurring with our second recommendation.

We maintain that our findings and recommendations, as modified, are valid.




                                                iii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION..................................................................................................................... 1

          BACKGROUND ............................................................................................................ 1
              Blue Cross Blue Shield of Oklahoma ................................................................. 1
              Medicare ............................................................................................................. 1
              Federal Requirements ......................................................................................... 1
              Pension Segmentation ......................................................................................... 1
              Prior Pension Segmentation Audit Report .......................................................... 2

          OBJECTIVE, SCOPE, AND METHODOLOGY .......................................................... 2
               Objective ............................................................................................................. 2
               Scope ................................................................................................................... 2
               Methodology ....................................................................................................... 3

FINDINGS AND RECOMMENDATIONS ........................................................................... 4

          PRIOR AUDIT RECOMMENDATION ........................................................................ 4

          UPDATE OF MEDICARE SEGMENT PENSION ASSETS........................................ 5
              Federal Requirements ......................................................................................... 5
              Contributions and Prepayment Credits Understated ........................................... 5
              Benefit Payments Overstated .............................................................................. 6
              Net Transfers Overstated .................................................................................... 6
              Earnings, Net Expenses Overstated .................................................................... 6

          MEDICARE SEGMENT EXCESS PENSION LIABILITIES ...................................... 7
               Federal Requirements ......................................................................................... 7
               Excess Medicare Segment Pension Liabilities as of February 29, 2008 ............ 8
               Medicare’s Share of Excess Pension Liabilities as of February 29, 2008 .......... 8

          RECOMMENDATIONS ................................................................................................ 9

          AUDITEE COMMENTS................................................................................................ 9

          OFFICE OF INSPECTOR GENERAL RESPONSE ................................................... 10




                                                                     iv
APPENDIXES

    A: STATEMENT OF MARKET VALUE OF PENSION ASSETS FOR BLUE CROSS
       BLUE SHIELD OF OKLAHOMA FOR THE PERIOD JANUARY 1, 1999, TO
       FEBRUARY 29, 2008

    B: CALCULATION OF AGGREGATE MEDICARE PERCENTAGE

    C: AUDITEE COMMENTS




                               v
                     Glossary of Abbreviations and Acronyms

CAS        Cost Accounting Standards
CMS        Centers for Medicare & Medicaid Services
FAR        Federal Acquisition Regulation
GHSO       Group Health Service of Oklahoma
HCSC       Health Care Service Corporation
Oklahoma   Blue Cross Blue Shield of Oklahoma
WAV        weighted average value




                                         vi
                                       INTRODUCTION

BACKGROUND

Blue Cross Blue Shield of Oklahoma

Blue Cross Blue Shield of Oklahoma (Oklahoma), a division of Group Health Service of
Oklahoma (GHSO), administered Medicare Part A operations under cost reimbursement
contracts with the Centers for Medicare & Medicaid Services (CMS) until GHSO merged with
Health Care Service Corporation (HCSC) on November 1, 2005. On December 29, 2006, HCSC
merged the Non-Contributory Retirement Program for Certain Employees of Group Health
Service of Oklahoma, Inc., into the HCSC Employee Pension Plan.

Pursuant to a novation agreement, HCSC assumed GHSO’s Medicare contracts and administered
the contracts under HCSC’s Oklahoma division until the contractual relationship terminated
effective February 29, 2008. The closing date for the Medicare segment was February 29, 2008.
Thus, although we are addressing this report to HCSC, we will associate the term Oklahoma with
our findings and recommendations regarding the segmentation termination as of
February 29, 2008.

Medicare

Since its inception, Medicare has paid a portion of contractors’ contributions to their pension
plans. These contributions are allowable Medicare costs subject to the criteria set forth in the
Federal Acquisition Regulation (FAR), Cost Accounting Standards (CAS), and Medicare
contracts. Furthermore, in situations such as contract terminations, the Medicare contracts
require contractors to identify excess Medicare segment pension assets/liabilities in accordance
with CAS 413.

Federal Requirements

CAS 412 addresses the determination and measurement of pension cost components. It also
addresses the assignment of pension costs to appropriate accounting periods.

CAS 413 addresses the valuation of pension assets, allocation of pension costs to segments of an
organization, adjustment of pension costs for actuarial gains and losses, and assignment of gains
and losses to cost accounting periods. CAS 413 also addresses the determination of segment
assets and liabilities in the event of contract terminations, segment closings, or pension plan
terminations.

Pension Segmentation

Beginning with fiscal year 1988, CMS incorporated segmentation requirements into the
Medicare contracts. The Medicare contracts define a segment and specify the methodology for
the identification and initial allocation of pension assets to the segment. Additionally, the
contracts require Medicare segment assets to be updated for each year after the initial allocation

                                                 1
in accordance with CAS 412 and 413. In claiming costs, contractors must follow cost
reimbursement principles contained in the FAR, CAS, and the Medicare contracts.

Upon the termination of its Medicare contracts, Oklahoma identified Medicare’s share of the
Medicare segment excess pension liabilities to be $1,871,051.

Prior Pension Segmentation Audit Report

We performed a prior pension segmentation audit at Oklahoma (A-07-00-00106, issued
July 17, 2001), which brought the Medicare segment pension assets to January 1, 1999. The
prior audit found that Oklahoma understated the Medicare segment pension assets by $45,508 as
of January 1, 1999. We recommended that Oklahoma increase its Medicare segment pension
assets by $45,508 and, as a result, recognize $1,823,883 as the Medicare segment pension assets
as of January 1, 1999.

OBJECTIVE, SCOPE AND METHODOLOGY

Objective

Our objective was to determine whether Oklahoma complied with Federal requirements and the
Medicare contracts’ pension segmentation requirements when:

   •    implementing the prior audit recommendation,

   •    updating the Medicare segment’s pension assets from January 1, 1999, to
        February 29, 2008, and

   •    determining Medicare’s share of the Medicare segment excess pension liabilities as a
        result of the termination of the Medicare contracts.

Scope

We reviewed Oklahoma’s identification of its Medicare segment; update of Medicare segment
assets from January 1, 1999, to February 29, 2008; and the segment closing calculation as of
February 29, 2008.

Achieving our objective did not require us to review Oklahoma’s overall internal control
structure. We reviewed controls relating to the identification of the Medicare segment, the
update of the segment’s assets, and the segment closing calculation to ensure adherence to the
Medicare contracts, CAS 412, and CAS 413.

We performed fieldwork at Oklahoma’s office in Tulsa, Oklahoma, during December 2008.




                                                2
Methodology

To accomplish our objective, we did the following:

   •   We reviewed the applicable portions of the FAR, CAS, and the Medicare contracts.

   •   We reviewed the annual actuarial valuation reports prepared by Oklahoma’s actuarial
       consulting firms, which included the pension plan’s assets, liabilities, normal costs,
       contributions, benefit payments, investment earnings, and administrative expenses. We
       used this information to calculate the Medicare segment assets.

   •   We reviewed the Medicare segment closing calculation prepared by Oklahoma’s actuarial
       consulting firms.

   •   We obtained and reviewed the pension plan documents and Department of Labor/Internal
       Revenue Service (IRS) Forms 5500 used in calculating the Medicare segment assets.

   •   We interviewed Oklahoma staff responsible for identifying the Medicare segment to
       determine whether the segment was properly identified in accordance with the Medicare
       contracts.

   •   We reviewed Oklahoma’s accounting records to verify the segment identification and
       benefit payments made to the Medicare segment.

   •   We reviewed the prior segmentation audit performed at Oklahoma (A-07-00-00106) to
       determine the beginning market value of assets.

   •   We provided the CMS Office of the Actuary with the actuarial information necessary for
       it to calculate both the Medicare segment pension assets from January 1, 1999, to
       February 29, 2008, and the Medicare segment’s excess pension liabilities as of
       February 29, 2008.

   •   We reviewed the CMS actuaries’ methodology and calculations.

We performed this review in conjunction with our audit of Oklahoma’s pension costs claimed for
Medicare reimbursement (A-07-10-00338) and used the information obtained during that audit in
this review.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




                                               3
                          FINDINGS AND RECOMMENDATIONS

Oklahoma properly implemented the prior audit recommendation; however, Oklahoma did not
always comply with Federal requirements and the Medicare contracts’ pension segmentation
requirements when updating Medicare segment assets from January 1, 1999, to
February 29, 2008. Oklahoma identified Medicare segment pension assets of $1,460,435;
however, we determined that the Medicare segment pension assets were $3,034,384 as of
February 29, 2008. As a result, Oklahoma understated the Medicare segment pension assets by
$1,573,949 as of February 29, 2008.

Appendix A presents details on the Medicare segment’s pension assets from January 1, 1999, to
February 29, 2008, as determined during our audit. Table 1 summarizes the audit adjustment
required to update Medicare segment pension assets in accordance with Federal requirements.

                      Table 1: Summary of Audit Adjustments
                                            Per Audit   Per Oklahoma Difference
Prior Audit Recommendation                   $1,823,883     $1,823,883       $0

Update of Medicare Segment Assets
  Contributions and Prepayment Credits        $3,045,732                 $2,666,884     $378,848
  Benefit Payments                             2,087,502                  2,698,775      611,273
  Net Transfers                              (1,256,055)                (1,842,303)      586,248
  Earnings Net Expenses                        1,508,326                  1,510,746       (2,420)
Under/(Over)statement of Medicare Pension Segment Assets                              $1,573,949

In addition, CAS 413 requires a segment closing adjustment to be made in order to recognize
Medicare’s share of the Medicare segment excess pension liabilities as a result of the termination
of the Medicare contracts. Oklahoma did not fully comply with Federal requirements in its
calculation of Medicare’s share of the Medicare segment excess pension liabilities associated
with the termination of the Medicare contracts. Oklahoma computed Medicare’s share of the
Medicare segment excess pension liabilities to be $1,871,051; however, we determined that
Medicare’s share of the Medicare segment excess pension liabilities was $899,828 as of
February 29, 2008. Accordingly, we determined that Oklahoma overstated Medicare’s share of
excess pension liabilities, due to the termination of the Medicare contracts, by $971,223.

PRIOR AUDIT RECOMMENDATION

Oklahoma properly implemented the prior audit recommendation (A-07-00-00106) which
recommended that Oklahoma increase Medicare segment pension assets by $45,508, and
recognize $1,823,883 as the Medicare segment pension assets, as of January 1, 1999.




                                                4
UPDATE OF MEDICARE SEGMENT PENSION ASSETS

Oklahoma did not always comply with Federal requirements and the Medicare contracts’ pension
segmentation requirements when updating Medicare segment assets from January 1, 1999, to
February 29, 2008.

Federal Requirements

The Medicare contracts identify a Medicare segment as:

       … any organizational component of the contractor, such as a division,
       department, or other similar subdivision, having a significant degree of
       responsibility and accountability for the Medicare contract/agreement, in which:

               1. The majority of the salary dollars is allocated to the Medicare
                  agreement/contract; or,

               2. Less than a majority of the salary dollars are charged to the Medicare
                  agreement/contract, and these salary dollars represent 40% or more of
                  the total salary dollars charged to the Medicare agreement/contract.

Furthermore, the Medicare contracts state that “… the pension assets allocated to each Medicare
Segment shall be adjusted in accordance with CAS 413.50(c)(7).” CAS 413.50(c)(7) requires
that the asset base be adjusted by contributions, permitted unfunded accruals, income, benefit
payments, and expenses. The CAS requires expenses to be allocated among the segments in
proportion to the investment earnings. In addition, CAS 413.50(c)(8) requires an adjustment to
be made for transfers (participants who enter or leave the segment) if the transfers materially
affect the segment’s ratio of pension plan assets to actuarial accrued liabilities.

For plan years beginning after March 30, 1995, the CAS requires investment income and
expenses to be allocated among segments based on the ratio of the segment’s weighted average
value (WAV) of assets to total company WAV of assets.

Furthermore, CAS 412.50(a)(4) requires that contributions in excess of the pension cost assigned
to the period be recognized as prepayment credits and accumulated at the assumed valuation
interest rate until applied to future period costs. Prepayment credits that have not been applied to
fund pension costs are excluded from the value of assets used to compute pension costs.

Contributions and Prepayment Credits Understated

Oklahoma understated contributions and prepayment credits by $378,848 for the Medicare
segment. This understatement occurred primarily because Oklahoma did not allocate
contributions to the Medicare segment from January 1, 2007, through February 29, 2008. As a
result, Oklahoma understated the Medicare segment pension assets by $378,848.




                                                 5
The audited contributions and prepayment credits are based on the assignable pension costs. In
compliance with the CAS, we applied prepayment credits first to current-year assignable pension
costs because the credits were available at the beginning of the year, and then updated any
remaining credits with interest to the next measurement (valuation) date. We then allocated
contributions as needed to assigned pension costs as of the date of deposit.

Benefit Payments Overstated

Oklahoma overstated benefit payments by $611,273, primarily because it incorrectly included
non-Medicare segment participants’ benefit payments in 2006, 2007, and 2008. Therefore, the
Medicare segment pension assets were understated by $611,273.

Net Transfers Overstated

Oklahoma overstated transfers out of the Medicare segment by $586,248. The overstatement
occurred primarily because Oklahoma incorrectly identified the participants who transferred in
and out of the Medicare segment. This overstatement of the net transfer adjustment resulted in
an understatement of the Medicare segment assets by $586,248.

A comparison of Oklahoma’s and our calculations of net asset transfers from the Medicare
segment appears in Table 2.

                  Table 2: Net Asset Transfer from the Medicare Segment
                            Per Audit      Per Oklahoma      Difference
                   1999        ($10,513)            ($2,070)     ($8,443)
                   2000           77,561              79,036      (1,475)
                   2001         (54,106)            (49,216)      (4,890)
                   2002         (49,813)            (53,290)        3,477
                   2003         (48,011)            (40,393)      (7,618)
                   2004         (22,506)            (22,506)            0
                   2005        (231,609)              27,251   (258,860)
                   2006        (858,213)         (1,723,827)     865,614
                   2007         (58,845)            (57,288)      (1,557)
                  Total     ($1,256,055)        ($1,842,303)    $586,248

Earnings, Net Expenses Overstated

Oklahoma overstated investment earnings, less administrative expenses, by $2,420 for the
Medicare segment because it used incorrect contributions and prepayment credits, benefit
payments, and net transfer amounts (all discussed above) to develop the Medicare segment
pension asset base. In our audited update, we allocated earnings and expenses based on the
applicable CAS requirements.




                                               6
MEDICARE SEGMENT EXCESS PENSION LIABILITIES

Federal Requirements

Medicare Contracts

In the event of a contract termination, the Medicare contracts require contractors to follow the
segment closing provision of the CAS. Furthermore, in situations such as contract terminations,
the Medicare contracts require contractors to identify excess Medicare pension liabilities in
accordance with CAS 413.

Cost Accounting Standards

Contract terminations and segment closings are addressed by CAS 413.50(c)(12), which states:

       If a segment is closed, if there is a pension plan termination, or if there is a
       curtailment of benefits, the contractor shall determine the difference between the
       actuarial liability for the segment and the market value of the assets allocated to
       the segment, irrespective of whether or not the pension plan is terminated. The
       difference between the market value of the assets and the actuarial accrued
       liability for the segment represents an adjustment of previously-determined
       pension costs.

       (i) The determination of the actuarial accrued liability shall be made using the
       accrued benefit cost method. The actuarial assumptions employed shall be
       consistent with the current and prior long term assumptions used in the
       measurement of pension costs….

       (ii) … The market value of the assets shall be reduced by the accumulated value
       of prepayment credits, if any. Conversely, the market value of assets shall be
       increased by the current value of any unfunded actuarial liability separately
       identified and maintained in accordance with 9904.412-50(a)(2).

       (iii) The calculation of the difference between the market value of the assets and
       the actuarial accrued liability shall be made as of the date of the event (e.g.,
       contract termination, plan amendment, plant closure) that caused the closing of
       the segment, pension plan termination, or curtailment of benefits. If such a date is
       not readily determinable, or if its use can result in an inequitable calculation, the
       contracting parties shall agree on an appropriate date.




                                                7
Excess Medicare Segment Pension Liabilities as of February 29, 2008

Oklahoma identified $2,123,156 in excess Medicare segment pension liabilities as of
February 29, 2008. However, we calculated the excess Medicare segment pension liabilities to
be $933,044 as of that date. Therefore, Oklahoma overstated the excess pension liabilities by
$1,190,112. The overstatement occurred primarily because Oklahoma understated the Medicare
segment’s final market value of assets (as previously discussed) and incorrectly identified the
Medicare segment participants as of February 29, 2008.

Medicare’s Share of Excess Pension Liabilities as of February 29, 2008

Federal Requirements

The methodology for determining the Federal Government’s share of excess pension liabilities is
addressed by CAS 413.50(c)(12)(vi), which states:

       The Government’s share of the adjustment amount determined for a segment shall
       be the product of the adjustment amount and a fraction. The adjustment amount
       shall be reduced for any excise tax imposed upon assets withdrawn from the
       funding agency of a qualified pension plan. The numerator of such fraction shall
       be the sum of the pension plan costs allocated to all contracts and subcontracts
       (including Foreign Military Sales) subject to this Standard during a period of
       years representative of the Government’s participation in the pension plan. The
       denominator of such fraction shall be the total pension costs assigned to cost
       accounting periods during those same years. This amount shall represent an
       adjustment of contract prices or cost allowance as appropriate. The adjustment
       may be recognized by modifying a single contract, several but not all contracts, or
       all contracts, or by use of any other suitable technique. [Emphasis added.]

Medicare’s Share of the Excess Pension Liabilities Overstated

Oklahoma did not comply with the Medicare contracts in determining Medicare’s share of the
excess pension liabilities associated with the termination of the Medicare contracts as of
February 29, 2008. Oklahoma calculated $1,871,051 as Medicare’s share of the excess pension
liabilities as of February 29, 2008; however, we determined that Medicare’s share of the excess
pension liabilities was $899,828 as of February 29, 2008. The overstatement occurred primarily
because Oklahoma (1) understated the Medicare segment’s pension assets as of
February 29, 2008 (as discussed above), and (2) incorrectly included a portion of the “Other”
segment excess pension liabilities in its calculation of Medicare’s share of the excess pension
liabilities. As a result, Oklahoma overstated Medicare’s share of the Medicare segment excess
pension liabilities by $971,223.

In accordance with CAS 413.50(c)(12)(vi), we calculated the aggregate Medicare percentage
using the Medicare segment pension costs developed during the prior pension costs claimed




                                               8
(A-07-01-00121) and current pension costs claimed (A-07-10-00338) audits. Appendix B shows
our calculation of the Medicare segment’s aggregate Medicare percentage; Table 3 shows our
calculation of Medicare’s share of the excess liabilities.

                Table 3: Medicare’s Share of the Excess Pension Liabilities
             Per Audit
               Medicare Segment Excess Liability                    $933,044
               Aggregate Medicare Percentage                          96.44%
             Medicare’s Share of Excess Pension Liabilities           899,828

             Per Oklahoma
               Medicare Segment Excess Liabilities                        1,759,997
               Other Segment Excess Liabilities                             111,054
             Medicare’s Share of the Excess Pension Liabilities           1,871,051

             Difference                                                  ($971,223)

RECOMMENDATIONS

We recommend that Oklahoma:

   •   increase the Medicare segment pension assets as of February 29, 2008, by $1,573,949
       and recognize $3,034,384 as the Medicare segment’s pension assets; and

   •   decrease Medicare’s share of the excess pension liabilities by $971,223 and submit for
       reimbursement $899,828 as Medicare’s share of the excess pension liabilities due to the
       segment closing calculation.

AUDITEE COMMENTS

In written comments on our draft report, Oklahoma did not directly address our first
recommendation. Oklahoma concurred with the substance of our second recommendation but
disagreed with the final Medicare segment accrued liabilities that we used in our calculations.

Specifically, Oklahoma stated that the final accrued Medicare segment liability ($3,698,163)
used in our draft report to compute the segment closing adjustment was based on our estimation.
Oklahoma added that subsequent to the issuance of our draft report, Oklahoma and its actuarial
consulting firm provided us with the actual Medicare segment final accrued liabilities of
$3,997,528 as of February 29, 2008. Oklahoma requested that the draft report be finalized, and
Medicare’s share of the excess Medicare segment pension liabilities be adjusted, on the basis of
these revised amounts.

Oklahoma’s comments are included in their entirety as Appendix C.




                                                9
OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing Oklahoma’s comments, we revised the calculation of Medicare’s share of the
excess Medicare segment pension liabilities to reflect the actual Medicare segment final accrued
liabilities of $3,997,528. However, we disagree with Oklahoma’s statement that the final
Medicare segment accrued liabilities used in our draft report were based on our (that is, the
Office of Inspector General in consultation with the CMS Office of the Actuary, as mentioned in
our Methodology section) estimates. In fact, during our fieldwork we used the final Medicare
segment accrued liabilities that Oklahoma provided to us. After the issuance of the draft report,
Oklahoma provided us with the actual Medicare segment final accrued liabilities of $3,997,528
as of February 29, 2008. We incorporated this adjustment into this final report and revised the
relevant finding and recommendation accordingly.

Furthermore, although Oklahoma did not specifically address our first recommendation, it
effectively agreed to the recommended adjustment to assets as of February 29, 2008, by
concurring with our second recommendation. We used the Medicare segment pension assets
specified in our first recommendation ($3,034,384 as of February 29, 2008) to compute
Medicare’s share of the excess pension liabilities (the focus of our second recommendation, with
which Oklahoma concurred).

We maintain that our findings and recommendations, as modified, are valid.




                                               10
APPENDIXES
                                                                                                    Page I of3

                   APPENDIX A: STATEMENT OF MARKET VALUE OF PENSION ASSETS 

                           FOR BLUE CROSS BLUE SHIELD OF OKLAHOMA 

                       FOR THE PERIOD JANUARY 1, 1999, TO FEBRUARY 29, 2008 


              Description                 Total Company       "Other" Segment       Medicare Segment

Assets Janljary I, 1999            II         $45,902,185          $44,078,302            $1,823,883

Prepayment Credits                 'ld                  0              (99,474)               99,474
Contributions                      lL             437,900              437,900                     0
Other Transactions                                      0                    0                     0
Earnings                           1L           7,322,613            7,003,281               319,332
Benefit Payments                   2!..        (3,762,250)          (3,762,250)                    0
Expenses                           §L            (229,598)            (219,585)              (10,013)
Transfers                          11                   0               10,513               (I0,513)

Assets January L 2000                         $49,670,850          $47,448,687            $2,222,163

Prepayme l1 t Credits                                   0              (24,24 I)~             24,241
Contributions                                   1,984,950            1,964,357                20,593
Other Transactions                                      0                     0                     0
Earnings                                       (2,009,247)          (1,915,430)              (93,817)
Benefit Payments                               (3,284,143 )         (3~284,I 43)                    0
Expenses                                         (306,899)            (292,569)              ( 14,330)
Transfers                                               0              (77,561)               77,561

Assets January I, 200 I                       $46,055,511          $43,819,100            $2,236,41 I

Prepayment Credits                                      0              (77,456)                77,456
Contributions                                   7,527,637            7,455,088                 72,549
Other Transactions                                      0                    0                       0
Earnings                                       (2,342,961 )         (2,222,461 )            ( 120,500)
Benefit Payments                               (2,543,186)          (2,538,711 )                (4,475)
Expenses                                         (264,385)            (250,788)               ( 13,597)
Transfers                                               0               54,106                (54,106)

Assets January I, 2002                        $48,432,616          $46,238,878            $2,193,738

Prepayment Credits                                      0             (268,269)              268,269
Contributions                                  14,100,000           14,100,000                       0
Other Transactions                                      0                    0                       0
Earnings                                       (3,954,334)          (3,766,093) .           (I 88,24 I)
Benefit Payments                               (3,118,093)          (2,656,782)             (461,3 II)
Expenses                                         (253,454)            (241,389)               (\ 2,065)
Transfers                                               0               49,813                (49,813)

Assets January I,2003                         $55,206,735          $53,456,158            $1,750,577

Prepayment Credits                                      0             (467,199)              467,199
Contributions                                  22,000,000           22,000,000                     0
Other Transactions                                      0                    0                     0
Earnings                                       10,250,697            9,823,521               427,176
Benefit Payments                               (3,976,005)          (3,976,005)                    0
Expenses                                         (387,856)            (371,693)              (16,163)
Transfers                                               0               48,011               (48,011)

Assets January I, 2004                        $83,093,571          $80,512,793            $2,580,778
                                                                                       Page 2 of3




             Description       Total Company       "Other" Segment      Medicare Segment

Assets January 1,2004              $83,093,571          $80,512,793           $2,580,778

Prepayment Credits                           0             (468,678)             468,678
Contributions                       13,500,000           13,500,000                     0
Other Transactions                           0                    0                     0
Earnings                             8,425,145            8,105,556              319,589
Benefit Payments                    (5,404,839)          (5,404,839)                    0
Expenses                              (343,736)            (330,697)             ( 13,039)
Transfers                                    0               22,506              (22,506)

Assets January 1,2005              $99,270,141          $95,936,641           $3,333,500

Prepayment Credits                           0             (559,030)             559,030
Contributions                       13,000,000           13,000,000                    0
Other Transactions                           0                    0                    0
Earnings                             7,506,858            7,208,714              298,144
Benefit Payments                    (6,756,692)          (6,588,544)            (168,148)
Expenses                                     0                    0                    0
Transfers                                    0              231,609             (231,609)

Assets January I, 2006            $113,020,307         $109,229,390           $3,790,917

Prepayment Credits                            0            (570,758)             570,758
Contributions                         6,000,000           6,000,000                    0
Other Transactions         ~       609,448,581          609,448,581                    0
Earnings                             13,921,390          13,405,642              515,748
Benefit Payments                   ( 13,690,225)        (13,155,937)            (534,288)
Expenses                               (474,067)           (456,504)             (17,563)
Transfers                                     0             858,213             (858,213)

Assets January I, 2007            $728,225,986         $724,758,627           $3,467,359

Prepayment Credits                           0             (354,829)             354,829
Contributions                       77,950,000           77,950,000                    0
Other Transactions                     608,435              608,435                    0
Earnings                            70,729,172           70,403,733              325,439
Benefit Payments                   (73,929,564)         (73,010,284)            (919,280)
Expenses                            (3,994,199)          (3,975,821 )            (18,378)
Transfers                                    0               58,845              (58,845)

Assets January I, 2008            $799,589,830         $796,438,706           $3,151,124
                                                                                                                                  Page 3 of3




                  Description                            Total Company              "Other" Segment            Medicare Segment

    Assets January 1, 2008                                    $799,589,830                $796,438,706                  $3,151,124

    Prepayment Credits                                                    0                    (62,656)                     62,656
    Contributions                                                12,900,000                 12,900,000                           0
    Other Transactions                                                    0                          0                           0
    Earnings                                                    (43,306,625)               (43,132,761)                   (173,864)
    Benefit Payments                                             (9,410,768)                (9,410,768)                          0
    Expenses                                                     (1,377,896)                (1,372,364)                     (5,532)
    Transfers                                                             0                          0                           0

    Assets February 29, 2008                                  $758,394,541                $755,360,157                  $3,034,384
    Per Oklahoma                               9/             $758,394,541                $756,934,106                  $1,460,435
    Asset Variance                            10/                       $0                 ($1,573,949)                 $1,573,949



FOOTNOTES

 lL We determined the Medicare segment pension assets as of January 1, 1999, based upon our prior segmentation
    audit of Blue Cross Blue Shield of Oklahoma (Oklahoma) (A-07-00-00106). The amounts shown for the "Other" segment
    represent the difference between the Total Company and the Medicare segment. All pension assets are shown at market
    value.

 y.. 	Prepayment credits represent funds available to satisfY future funding requirements and are applied to future funding
    requirements before current year contributions in order to avoid incurring unallowable interest. Prepayment credits are
    transferred to the Medicare segment as needed to cover funding requirements.

 J..L 	 We obtained Total Company contribution amounts from the actuarial valuation reports and Department of Labor/Internal
        Revenue Service Forms 5500. We allocated Total Company contributions to the Medicare segment based on the ratio of the
        Medicare segment funding target divided by the Total Company funding target. Contributions in excess of the funding targets
        were treated as prepayment credits and accounted for in the "Other" segment until needed to fund pension costs in the future.

 1£ We obtained investment earnings from actuarial valuation reports. We allocated investment earnings based on the ratio of
    the segment's weighted average value (WAV) of assets to total company WAV of assets as required by the Cost Accounting
    Standards (CAS).

 ~ We
    	 based the Medicare segment's benefit payments on actual payments to Medicare retirees. We obtained the benefit
   payments from documents provided by Oklahoma.

 QL We allocated administrative expenses to the Medicare segment in proportion to investment earnings.

 7J. 	 We identified participant transfers between segments by comparing valuation data files provided by Oklahoma.   Asset
    transfers were equal to the actuarial liability determined under the accrued benefit cost method in accordance with the CAS.

 llL 	We obtained other transactions from the actuarial valuation reports. Other transactions represent the merger of the Non­
    Contributory Retirement Program for Certain Employees of Group Health Service of Oklahoma, Inc., into the Health Care
    Service Corporation Employee Pension Plan.

 2!.. 	 We obtained total asset amounts as of February 29, 2008, from documents prepared by Oklahoma's actuarial consulting
    firms.

10/ The asset variance represents the difference between our calculation of Medicare segment pension assets and Oklahoma's
    calculation of the Medicare segment pension assets.
                 APPENDIX B: CALCULATION OF 

               AGGREGATE MEDICARE PERCENTAGE 


              Medicare Segment              Total Medicare    Medicare's
Fiscal Year      Pension Costs             Segment Pension Aggregate %
     11     Charged to Medicare (A)            Costs (B)       (AlB) 21
    1987                    $35,577                  $35,584
    1988                     13,102                    13,113
    1989                       4,614                    4,616
    1990                     12,356                    12,356
    1991                     22,296                    22,638
    1992                     28,195                    28,983
    1993                     52,192                    53,701
    1994                     81,947                    82,934
    1995                     78,493                    79,254
    1996                     17,746                    18,910
    1997                     39,174                    39,621
    1998                    110,520                   116,276
    1999                    104,004                   108,962
   2000                      56,122                    58,194                  ""




   2001                     115,830                   122,429
   2002                     228,610                  238,309
   2003                     402,146                  417,467
   2004                     439,367                  468,308
   2005                     499,535                  536!442              .
   2006                     561,239                  567,826             ".
   2007                     405,704                  408,811
   2008                     149,683                   151,363
   Total                 $3,458,452               $3,586,097   96.44%

11 	 The aggregate percentage was based on the audited pension costs as
     determined during the pension audits related to the Oklahoma Medicare
     segment. The information for fiscal years (FY) 1987 - 1999 was obtained
     during our prior audit (A-07-01-00121). The information for FYs 2000 ­
     2008 was obtained during the current review (A-07-10-00338).

21 	 We calculated the aggregate Medicare percentage by dividing the Medicare
     segment pension costs charged to Medicare (numerator) by the total
     Medicare segment pension costs (denominator) pursuant to Cost Accounting
     Standard 413.
                                                                                                                                                               Page 1 of 3


                               APPENDIX C: AUDITEE COMMENTS 





Via UPS and Email via pdf attachment


August 20, 2010
                                                                   .... 

                                                   BlueCross BlueShield
                                     Of Illinois, New Mexico, Oklahoma and Texas
Patrick J. Cogley, Regional Inspector General for Audit Services
U.S. Department of Health & Human Services
Office of Inspector General Office of Audit Services
Region VII
601 East 12'" street
Room 0429
Kansas City. Missouri 64106                                 Email: PCogley@OIG.HHS.GOV



Subject: Draft Report Response and Comments
         Reports Number A-07-10-00337 and Number A-07-10-00338 respectively entitled
         Review of Qualified Pension Plan at Blue Cross Blue Shield of Oklahoma, a Terminated
                    Medicare Contractor. for the Period January 1. 1999 to February 29. 2008
                                               And
         Review of Pension costs Claimed for Medicare Reimbursement by Blue Cross Blue Shield
                   of Oklahoma for Fiscal Years 2000 Through 2008


Dear Mr. Cogley:

Your June 29,2010 letter(s) conveying the draft reports requested that (in order to properly consider our views on
the validity of the facts and reasonableness of the recommendations) we provide written comments within 30
days. Based on further interchange with your audit team your office granted an extension for reply until August
20,2010.

Your letter requests explicit concurrence. including actions taken or non-concurrence, including reasons and
alternatives for the recommendation(s) of each audit

Due to the nature of these type contract termination pension segment closing and settlement audits, our
interactive work with the audit team assigned and the structured approach taken in the audit recommendations,
our response is summarized at a higher level joining the substance and overarching recommendations across
both audits since the outcomes are interrelated. We do also include clarifying and supporting descriptions.

Based on the interlocking approach of the audits as represented in reviews with both the Office of Audit Services
staff and the Office of Actuary representatives (OIG). we concur that HCSC (Health Care Service Corporation, a
Mutual Legal Reserve Company)(aka Oklahoma per the audit drafts) both: a) Claims the additional allowable
pension costs of $551,039 for the periodS from FY 2000 through 2008 ($551,039 is taken directly from the
recommendation contained within the A-07-10-0338 draft report--see attachment): and b)Submits the request for
reimbursement of $899,827 for Medicare's share of the excess pension liabilities resulting from the segment
closing calculations ($899,827 is based directly on the estimated $611,120 stated in the recommendation within
the A-07-10-00337 draft report, adjusted in agreement with OIG to refiect the effects of the final Medicare
segment liabilities which OIG initially estimated in the draft--seeattachment).

The recommendation amount related to A-07-10-0337 is adjusted because the final accrued Medicare Segment
liability ($3,698,163) used in the draft report (work papers) to compute the segment closing adjustment was based
on OIG estimation. Subsequent to the issuance of the draft report, HCSC (aka Oklahoma per the audit drafts)
and Towers Watson & Company Co. (actuarial consultants) provided (and reached agreement with OIG) OIG the
actual Medicare segment final accrued liabilities of $3,997.528 as of 2-29-2008, calculated based on the
approach OIG employed in the audit (see attachment) The difference in the liability measurement flows into the
difference in the settlement amount due in the recommendation of draft A-07 -10-0337. Except for reviSion in the
final segment closing amounts as a result of the reviSion to the final accrued liabilities, the balance of the reports
did not change


 Di\'ISIOns of Health C.lrc St:f\'ice Corporau(.m, a Mutllal LegaJ Reserve Comp.my, an Independent Llcen.sec of the Blut': Cro~ and Blue Shield ASSO<:lation
                                                                                                                                                                Page 2 of 3




Page 2 letter dated August 20, 2010
Patrick J, Cogley, Regional Inspector
General for Audit Services Of·I11'mOIS,
                                        BlueCross BlueShield 

                                      'N ew M   . Okl a homa
                                            I eXICo,
                                                                      ....                             an d '[
ex as
Beyond the primary summary recommendations of the draft reports (coupled in approach) as concurred above,
the majority of the balance of the information or "sub-recommendations" in the reports are technically correct
realignments related to OIG strict approach and technique differences versus the initial HCSC/Okiahoma draft
settlement, building up to the end results.

Other than the adjustments for a few participant segment assignment and transfer method differences that were
corrected by the OIG audit team (which HCSC/Okiahoma had captured differently), the end-of-segment­
settlement technique HCSC/Okiahoma initially drafted for OIG review would have lead to a similar net-net overall
settlement dollar amount result across the draft audits (plus or minus the less material amounts the OIG team
recalculated related to annual CAS cost allocation differences for 2000-2006 in A-07-10-0338).

So that the Draft response will clarify/document the point of interpretive difference between how HCSC/Oklahoma
approached the segment ending and why OIG methodically recast the results leading to the final draft
recommendations, the primary approach difference was that HCSC/Oklahoma initially created an interim close
out/settlement of related pension matters as of 12-31-06,

HCSC/Okiahoma initially selected a 12-31-2006 settlement date because we had forecasted (and ultimately our
forecast turned out to be correct) that we would not be actively pursuing Medicare Part A&B business after
2006. Because HCSC did not actively pursue Medicare Part A&B business after 2006, we concluded under the
prevailing Circumstances that HCSC would not seek reimbursement from CMS for pension related costs incurred
by the Medicare segment after 2006 and therefore the pension liabilities should be settled at 12-31-2006 rather
than the actual contract termination date. The OIG Audit and Actuarial team instead determined that the
regulations require the settlement to be as of the contract end date, 2-29-2008, and that based on advancing the
previous Medicare pension segment components to 2-28-2008 methodically, HCSC was therefore entitled to
reimbursement of pension costs incurred during the period from 12-31-2006 through 2-29-2008. It is our
understanding that OIG accepted HCSC's rationale for selecting the 12-31-2006 date as reasonable and logical
but ultimately concluded that the regulations and precedent did not, and do not, provide for any discretion on the
selection of the settlement date. HCSC accepted the OIG determination, agreed to the revised basis presented in
the audit drafts as reflected in the draft recommendations, and agreed that the audits and closing of the pension
related matters should be final.


We appreciate the profeSSionalism and cooperation of the OIG while working on these matters. We request that
the two draft audits (A-07-10-00337 and A-07-10-00338) be finalized now as updated with the derived
reimbursement amounts (as adjusted per the above) due from CMS to HCSC (approximately $1,450,866 sum of
the above) being either wired directly to HCSC or credited to the overall BCBSOK Medicare Contract global
closing agreement settlement.


Thank you.

Gene George, Executive Director Treasury, HCSC
and

Nancy Donaldson, Vice President Medicare Contract Administration, HCSC

A02-012 or B13A-5.413
1001 E. Lookout Drive
Richardson, Texas 75082
972-766-6192 or 972-766-1664


attachment: (page 3) one page reference support to paragraphs four and five above

 Div!sions of Health Cure Service CorporatIon,   11   Mutual Legal Reserve Company. an Imkpcndent Licensee oftht.: Hlue Cross and l11uc ShIeld   ASSO('latICm
                                                                                                              Page 3 of 3




     Attachment to August 20, 2010 Draft Report Response and Comments Letter
          Reports Number A-07·1 0-00337 and Number A-07 ·10·00338

                Cumparisun of AlIowatJlt'       Pen~ion   Costs and Claimed Pension Costs
                        r'-"'-'--­
                        I                    Medicare Pension Costs
                                             Allowable Chlimed by
                        ~ Fis~<ll   Y ea_~   PCI' Audit  Oklahoma          Diffcl-ence
                              2000               $73,071    $137.873        ($64,802)      i
                              2001               148,810     ! 46,468             2'4"
                                                                                   ,­ :.   Ii
                              2002              270)93 7     229,826             41, III   :
                              lOU3              497,935      512,273          ~J~.338)     :
                              2(J04              516,437     523,324            (6,887)
                              2005               569,853     604,736          (34,883)
                              2006               586,204     574,901             11,303
                              ~()07              564,853     167.178           397,675     i
                              2008               219,518            0             21?,5!!Lj
                        ~JY.1l         __    $3,447,618 J,?!?96,579              $551,039 !

   Ihi, llmkrcl:lrrn (l(:currd primarily b~ctlllse Oklahoma did no! claim pension costs for Medicare
  r"irnbursernent frolll January 2007 through February 2008. As a result, Oklahoma did not clallll
  )551 ,():)9 uf aIJo\,>·'able pension costs.




BeBS of Oklahoma Pension Plan Settlement of Medicare Segment Pension liability

                                                                   OIG Calculation HCSC    Cal~utatlon


        1 Medicare Segment Benefit liabilities at 2/28/2008            3698,163            3.997,528
        2 Unallowed                                                      30.100               30,100
        3 Net Lability' 1 - 2                                          3668.063            3,967,42g
        ~ Medicare Segment Assets at 2128/2008                         3.034,384           3034,384
        5 Unfunded Benefit Liabilities 3 - 4                            633.679              933,044
        6 Medicare Segment Audited Costs as Percent of Submitted          96.44%              96.44%
        7 Net Reimbursement Amount· 5 x 6                                611,120             899,827
                                                                                             288,707

     ((for reference only--excerpt of 8-13-2010 OIG Confirmation-' ..We have reviewed the support
     for the revised final Medicare segment accrued liabilities of $3,997,528 as of 212912008. We have
     determined the revised final liabilities for the Medicare segment appear to be reasonable. We will
     adjust our final audit report to identify the final Medicare segment accrued liabilities of $3,997,528
     as of 2129/2008 ... "»)
